<html>
<title> - NOMINATION OF HAROLD D. STRATTON, JR. TO BE COMMISSIONER AND CHAIRMAN OF THE CONSUMER PRODUCT SAFETY COMMISSION</title>
<body><pre>[Senate Hearing 107-961]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-961



                 NOMINATION OF HAROLD D. STRATTON, JR.


                 TO BE COMMISSIONER AND CHAIRMAN OF THE


                   CONSUMER PRODUCT SAFETY COMMISSION

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 25, 2002

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



87-746              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

           COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida

               Kevin D. Kayes, Democratic Staff Director
      Jeanne Bumpus, Republican Staff Director and General Counsel


                            C O N T E N T S

                              ----------                              

                                                                   Page
Hearing held on April 25, 2002...................................     1
Statement of Senator Dorgan......................................  1, 2
Statement of Senator Fitzgerald..................................    16
Prepared statement of Senator Hollings...........................    18
Statement of Senator McCain......................................    13
    Prepared statement...........................................    13
Statement of Senator Wyden.......................................     3

                               Witnesses

Domenici, Hon. Pete, U.S. Senator from New Mexico................     1
Stratton, Harold D. Jr., Nominee to be Commissioner and Chairman 
  of the Consumer Product Safety Commission......................     4
    Prepared statement...........................................     6
    Biographical information.....................................     7

                                Appendix

Written responses to post-hearing questions from Senator Bill 
  Nelson.........................................................    19
Written responses to post-hearing questions from Senator John D. 
  Rockefeller IV.................................................    20
Written responses to post-hearing questions from Senator John 
  Breaux.........................................................    21
Written responses to post-hearing questions from Senator George 
  Allen..........................................................    21

 
                 NOMINATION OF HAROLD D. STRATTON, JR.
                   TO BE COMMISSIONER AND CHAIRMAN OF
                 THE CONSUMER PRODUCT SAFETY COMMISSION

                              ----------                              


                        THURSDAY, APRIL 25, 2002

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 

SR-253, Russell Senate Office Building, Hon. Byron L. Dorgan, 
presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Good afternoon. The Senate Commerce 
Committee is meeting today for a confirmation hearing to 
examine the qualifications of Mr. Harold Stratton, who has been 
nominated by the President to serve as Commissioner and 
Chairman of the Consumer Product Safety Commission.
    I have a very brief statement, but I think perhaps even 
before I give the statement, I will call on my colleague, 
Senator Domenici, from the state of New Mexico, who is here to 
introduce the nominee.
    Senator Domenici, why don't you proceed?

               STATEMENT OF HON. PETE DOMENICI, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Domenici. That's very generous of you, Mr. Chairman 
and thank you very much, Senator Wyden. It's a pleasure to be 
here.
    I do have a complaint, Mr. Chairman. Maybe it's just the 
weight of my body, but these seats that you sit us in are way 
too low.
    [Laughter.]
    Senator Domenici. You need to put in an order for a couple 
of more cushions. Would you do that?
    Senator Dorgan. We'd be happy to do that.
    Senator Domenici. We'll join the voucher, 50-50.
    Anyhow, having said that----
    Senator Dorgan. I don't know that it's a good strategy to 
start with a complaint, however, Senator.
    [Laughter.]
    Senator Domenici. That's thoroughly a Domenici complaint. 
That's not his. He's an all right guy.
    Senator Dorgan. You may proceed.
    Senator Domenici. Thank you again, Mr. Chairman. And I've 
known Hal for a number of years, going back to the days that he 
served in the New Mexico House of Representatives and then as 
attorney general of the State of New Mexico. And clearly, Mr. 
Chairman and Members, if you want somebody who is active, who 
will participate, who has a lot of energy, you've got the right 
person. New Mexicans don't elect Republican attorneys general 
very often, Mr. Chairman. They elected him, and I will say he 
was a pleasant surprise. He did a marvelous job and has been a 
rather successful man ever since.
    So from my standpoint, I think the President chose a person 
that is just right for the job. I think he is ready to be the 
Chairman and provide the kind of leadership that is obviously 
missing and necessary in this consumer-oriented institution of 
our national government.
    While he was serving the people of New Mexico, he attained 
and preserved and was appropriately complimented for his 
willingness to protect the interests of all New Mexicans. I 
have no doubt that he will carry this trait with him into the 
CPSC, this same commitment to ensuring the safety of American 
consumers.
    I understand that Senator Bingaman, my colleague, cannot be 
here in person. He's trying diligently to finish the energy 
bill on the floor, on which he's doing a very good job. But I 
understand he will communicate, if he hasn't already, his 
support for the President's nominee.
    I'm pleased to be here, and I hope that you will 
interrogate as much as you need to and expeditiously report him 
out to the Senate for approval. Thank you very much, Mr. 
Chairman
    Senator Dorgan. Senator Domenici, thank you very much for 
being here. We certainly appreciate your input and your strong 
endorsement of this nominee.

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. As I indicated, the Senate Commerce 
Committee is meeting on the confirmation hearing for Mr. Harold 
Stratton. As we know, the Consumer Product Safety Commission 
chairmanship is a position that's gone vacant far too long. So 
long, in fact, that the statutory provision which allows the 
Consumer Product Safety Commission to operate with a quorum of 
two commissioners expires at the end of this month.
    With that in mind, I'd like to welcome Mr. Stratton today 
to the Committee. I'm sure that he and his family are proud to 
be here today, and when I recognize Mr. Stratton, I will ask 
him to recognize his family.
    Mr. Stratton is supported by the two Senators from New 
Mexico. I'd like to congratulate him on the nomination from 
President Bush. I note, Mr. Stratton, that in your many years 
of service, both as a state legislator and as New Mexico's 
attorney general, you have experience with consumer fraud 
issues in a certain range of areas, and I'm interested in 
hearing from you today about how you expect to approach 
consumer product safety issues which the Consumer Product 
Safety Commission is charged with overseeing.
    I expect that anyone with two young daughters, 2 and 7, 
already has a great deal of experience, first-hand experience, 
with child product safety. I certainly have experienced that, 
and I'm sure you have as well. While I appreciate your 
willingness to serve our country, I also want to thank your 
family, because public service relates not just to those who 
are serving, but their loved ones as well.
    I want to point out that this is an independent agency 
established by Congress in 1972 to protect the public from 
unreasonable and avoidable risks of death and injury associated 
with consumer products. Every year there are approximately 28.6 
million injuries and 21,700 deaths associated with 15,000 
different types of consumer products within the agency's 
jurisdiction.
    The Chairman of the Consumer Product Safety Commission is 
responsible for all of the executive and administrative 
functions of the Commission. The investigations, the Commission 
initiatives, the rules that it adopts, and even how staff 
resources are spent are all under the control of the Chairman. 
So today we will examine Mr. Stratton's qualification to be 
Chairman of this Consumer Product Safety Commission (CPSC) and 
to get a sense from him about what direction he feels the CPSC 
might take under his leadership if he is confirmed. If he is 
confirmed as Chairman of the Consumer Product Safety 
Commission, he will face many pressing issues and difficult 
decisions. We hope and expect, if that is the case, that he 
will confront these issues in a fair and a balanced manner.
    I know this is not one of the largest agencies in the 
federal government, but it is a very, very important agency. 
The stewardship and the aggressiveness by which someone assumes 
this responsibility on behalf of America's consumers is very 
important to all Members of this Committee.
    Let me ask Senator Wyden if he has a statement.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you, Mr. Chairman. Let me join you in 
welcoming Mr. Stratton, as well. And congratulations to you on 
your nomination. As far as I'm concerned, with Pete Domenici 
and Jeff Bingaman in your corner, you are running with the 
right crowd.
    Mr. Stratton. Thank you, Senator.
    Senator Wyden. I congratulate you and your family. Let me 
just mention an area in particular that I want to explore with 
you, because we know of your background, and particularly that 
this is a new area, this whole area of consumer product safety 
and consumer safety that we're going to be discussing today.
    You are known, of course, for your long-time interest in 
addressing free-market approaches to various questions in 
government. You've written on them. You've been involved in 
foundations that address areas where free-market approaches are 
stressed. I want to make it clear that I think that those are 
very fine and important principles, that free-market 
initiatives are critically important to our country. However, 
the Consumer Product Safety Commission really came into being 
because the free-market alone wouldn't address many of the 
concerns that children, older people, and the disabled have 
with respect to consumer protection. So what I'd like to do is 
explore with you your sense of what is the proper role of the 
federal government and what are the areas where consumers have 
responsibilities. Striking that balance is especially important 
to me.
    I look forward to your statement and having a chance to 
visit with you a bit this afternoon as we examine your 
nomination. Again, my congratulations to you and to your 
family.
    Thank you, Mr. Chairman.
    Senator Dorgan. Thank you.
    Mr. Stratton, why don't you proceed? Your entire statement 
will be made a part of the permanent record. We would ask you 
to summarize your statement. We would also like to ask, if 
there are members of your family present, if you would 
introduce them.

      STATEMENT OF HAROLD D. STRATTON, JR., NOMINEE TO BE 
           COMMISSIONER AND CHAIRMAN OF THE CONSUMER 
                   PRODUCT SAFETY COMMISSION

    Mr. Stratton. Mr. Chairman, thank you very much. Yes, I 
have one member of my family who is present today who has been 
with me through thick and thin through all of those offices 
that you read off there, which is my wife, Theresa, who is here 
supporting me, I think.
    Senator Dorgan. Welcome. Thank you. We appreciate your 
being here.
    Mr. Stratton. My 7-year-old daughter, I believe, is in 
school in Albuquerque. She'd better be in school in Albuquerque 
today. And our 2----
    [Laughter.]
    Senator Dorgan. She is supporting this nomination, I 
assume.
    Mr. Stratton. It depends on whether she gets a dog, 
Senator.
    Senator Dorgan. All right.
    Mr. Stratton. She has made it clear to me that if we have 
to move, she wants a dog. So we're having to do those kind of 
things.
    Our 2\1/2\ year old is in Sante Fe today with her 
grandmother, and we checked on her this morning. She's doing 
fine. She's having a great time. They love to have a little 
break from the parents.
    Mr. Chairman and Members of the Committee, it's an honor to 
appear here before you today as the President's nominee to be a 
member and Chairman of the Consumer Product Safety Commission. 
I welcome the opportunity to have this discussion with the 
Committee and respond to your questions.
    So that you might know me a little better, I'd like to tell 
you a little bit about myself. I was born in Muskogee, 
Oklahoma, and reared in Oklahoma City. My father served in 
World War II as a B-17 pilot and subsequently practiced law in 
Oklahoma for over 35 years. My mother and sister and her family 
continue to live in Tahlequah, Oklahoma, which is the capital 
of the Cherokee Nation, of which I am an enrolled member.
    I attended the University of Oklahoma, where I received 
degrees in geology and law. Subsequent to graduating from law 
school, I served my Army ROTC committment in the United States 
Army. Thereafter, in early 1977, I permanently moved to 
Albuquerque to practice law.
    In 1978, I was elected to the New Mexico House of 
Representatives where I served four terms. Among other 
positions, I served as Chairman of the Judiciary Committee, 
Vice Chairman of Energy and Natural Resources Committee, and 
one term on the Transportation Committee.
    In 1986, I was elected to the office of attorney general of 
New Mexico. There, in addition to acting as the attorney for 
New Mexico State government, I oversaw the state's only 
dedicated consumer-protection agency and the state's largest 
white-collar crime prosecution unit. Since I was limited to 
serving one term as attorney general by the New Mexico 
constitution, I re-entered the practice of law in Albuquerque 
in 1991, where I have practiced until the present.
    In my career, I've been honored to argue and handle many 
cases in many courts, including the United States Supreme 
Court.
    In each of the capacities in which I have served, my 
highest priority has been to work and serve with honesty, 
integrity, impartiality, and fairness toward my staff and 
employees, other State Executive and Legislative officials, my 
colleagues in the legal community, and the people I've served 
and represented. It is my sincere commitment, should I be 
confirmed, to continue these priorities as Chairman of the 
CPSC.
    My service in both the executive and legislative branches 
of government, I believe, provides a helpful perspective from 
which to appreciate the importance of each branch of 
government's unique responsibilities. As a result, I understand 
that this Committee is an important stakeholder in the success 
of the Commission and its mission to protect consumers. If 
confirmed, I will welcome a continuing dialog with this 
Committee.
    Finally, I would not purport to be an expert on all issues 
currently pending before the Commission, nor have I formed any 
preconceived positions on any pending or potential matters 
there. I would like, however, to suggest to the Committee three 
general topics that I believe are important to the future 
success of the Commission's mission.
    First, I'd like to explore ways in which the Commission 
could improve its performance and increase its efficiencies 
through various methods, including improved interagency 
consultation and information sharing. Improved coordination 
with other agencies could maximize the Commission's budgetary 
and related resources.
    Second, the Commission's consumer education outreach 
programs and consumer notification procedures are critical to 
protecting consumers and should be strengthened and enhanced to 
the maximum extent possible. I believe this effort to be 
particularly important in relation to our most vulnerable and 
hard-to-reach consumers, which includes seniors, consumers who 
are less fortunate economically, and those of our citizens who 
do not speak English as their first language.
    Third, I believe it would be useful to continue to enhance 
the Commission's oversight of imported products in light of the 
increasing number of consumer products imported from foreign 
countries. The Commission's responsibility in this area is 
substantial.
    Mr. Chairman, should you and the Senate decide to confirm 
me for this very important position, I look forward to carrying 
out this very important mission of the CPSC.
    Once again, it's a great honor to be here today, and I'll 
be pleased to answer any questions.
    [The prepared statement and biographical information of Mr. 
Stratton follow:]

     Prepared Statement of Harold D. Stratton, Jr., Nominee to be 
  Commissioner and Chairman of the Consumer Product Safety Commission

    Mr. Chairman and Members of the Committee, it is an honor to appear 
here before you today as the President's nominee as a Member and 
Chairman of the Consumer Product Safety Commission (CPSC). I welcome 
the opportunity to have this discussion with the Committee and respond 
to your questions.
    I am joined here today by my wife, Theresa Rivera Stratton, who I 
would like to introduce at this time. We have two young daughters who 
are not with us today. Our older daughter, Alexandra, is 7 and in the 
first grade. She is in school today in Albuquerque. Our younger 
daughter, Claire, who is 2\1/2\, is with her grandmother in Santa Fe 
today.
    So that you might know me a little better, I would like to tell you 
a bit about myself.
    I was born in Muskogee, Oklahoma and reared in Oklahoma City. My 
father served as a B-17 pilot in the Army Air Corp in World War II as a 
member of the 8th Air Force, and subsequently practiced law back in 
Oklahoma for over 35 years. My mother, sister and her family, continue 
to live in Tahlequah, Oklahoma, which is the capital of the Cherokee 
Nation, of which my daughter, Alexandra and I are enrolled members.
    I attended the University of Oklahoma where I received a Bachelor's 
Degree in Geology and Juris Doctor degree in Law. Subsequent to 
graduating from law school, I served my Army ROTC commitment on active 
duty in the United States Army. Thereafter, in early 1977, I 
permanently moved to Albuquerque, New Mexico to begin my career in the 
private practice of law and live in the varied and diverse culture and 
environment that is New Mexico.
    In 1978, I was elected to the New Mexico House of Representatives 
where I served four terms. Among other positions, I served as Chairman 
of the Judiciary Committee, Vice Chariman of the Energy and Natural 
Resources Committee and one term on the Transportation Committee. I 
also served terms on the New Mexico Judicial Council and the Commission 
on Uniform State Laws.
    In 1986, I was elected to the office of Attorney General of New 
Mexico. There, in addition to acting as the attorney for New Mexico 
State government, I oversaw the state's only dedicated, consumer 
protection agency and the state's largest white collar crime 
prosecution unit. While serving as Attorney General, I presided over 
and managed not only the day-to-day activities of the Consumer 
Protection Division, where we handled between one and two hundred 
consumer inquiries a day, but also oversaw a number of significant 
consumer actions and white collar crime prosecutions.
    Since I was limited to serving one term as Attorney General by the 
New Mexico constitution, I re-entered the private practice of law in 
Albuquerque in 1991 where I have practiced until the present. Since 
that time, my practice has consisted primarily of complex and 
commercial litigation, administrative and governmental law and, more 
recently, consulting and lobbying.
    In my career I have been honored to argue and handle cases in the 
United States Supreme Court, several U.S. Circuit Courts of Appeals, 
numerous U.S. District Courts, the New Mexico and Oklahoma Supreme 
Courts and Courts of Appeals and many other courts of lesser 
jurisdiction.
    I am admitted to the practice of law in New Mexico, Oklahoma, 
Colorado and Texas, as well as in numerous other Federal jurisdictions 
including the U.S. Supreme Court.
    In each of the capacities in which I have served, my highest 
priority has been to work and serve with honesty, integrity, 
impartiality and fairness, toward my staff and employees, other state 
executive and legislative officials, my colleagues in the legal 
community and the people I have served and represented.
    It is my sincere commitment, should I be confirmed, to continue 
these priorities and to serve on the CPSC with integrity, fairness, and 
with independent, unbiased judgment as chairman of this very important 
independent Commission.
    Congress has provided the Commission with the power to undertake 
actions, which have the potential to affect the safety of every 
consumer in America, and particularly those consumers who are most 
vulnerable and hard to reach, such as the elderly and our children. The 
Commission's jurisdiction over safety aspects of consumer products is 
broad and far-reaching. The Commission's actions have saved many lives 
and prevented many injuries, substantially improved the safety of 
countless consumer products, and heightened the public's awareness and 
knowledge of consumer product safety.
    My tenure in both the executive and legislative branches of 
government, I believe, provides a helpful perspective from which to 
appreciate the importance of each branch of government's unique 
responsibilities and duties. As a result, I understand that this 
Committee is an important stakeholder in the success of the Commission 
and its mission to protect consumers. If confirmed, I will welcome a 
continuing dialog with this Committee. Since the Commission's chairman 
is responsible for enforcing the laws as passed by the Congress, 
frequent dialog with this Committee will ensure that the Commission 
understands the Committee's positions and provides the Committee with 
the information it needs to effectively perform its legislative 
responsibilities.
    Finally, I would not purport to be an expert on all issues 
currently pending before the Commission, nor have I formed any pre-
conceived positions on any pending or potential matters there. I would 
like, however, to suggest to the Committee three general topics, in 
addition to those that may currently be on the Commission's agenda, 
that I believe are important to the future success of the Commission's 
mission.
    First, I would like to explore ways in which the Commission could 
improve its performance and increase its efficiencies through various 
methods including improved inter-agency consultation and information 
sharing. It is my understanding that several other Federal agencies 
possess data, information and expertise that could be useful to the 
Commission's mission. Improved coordination with such agencies could 
maximize the Commission's budgetary and related resources.
    Second, the Commission's consumer education outreach programs and 
consumer notification procedures are critical to protecting consumers 
and should be strengthened and enhanced to the maximum extent possible. 
While I realize that the Commission continues to strive to improve 
communication with consumers, I would hope to lead the Commission in 
enhancing its educational programs and communication with the all of 
the Nation's consumers.
    I believe this effort to be particularly important in relation to 
our most vulnerable and hard to reach consumers. This included seniors, 
parents, consumers who are less fortunate economically and those of our 
citizens who do not speak English as their first language. Coming from 
New Mexico where hispanics constitute 42 percent of the population and 
Native Americans constitute about 11 percent of the population, I 
appreciate the necessity of providing Commission information to 
consumers in a multi-lingual format. I intend to use my involvement and 
relationship in the Native American community and in the Hispanic and 
Spanish speaking community to improve and enhance the dissemination of 
consumer information to this segment of our population.
    Third, I believe it would be useful to continue to enhance the 
Commission's oversight of imported products. I know that efforts toward 
this goal are well down the line between the Commission and the U.S. 
Customs Service. In light of the increasing number of consumer products 
imported from foreign countries, the Commission's responsibility in 
this area is substantial. While working with the appropriate government 
agencies, including Customs, I would like to review the existing 
procedures and, if warranted, attempt to improve the nature of the 
Commission's oversight of such products.
    Mr. Chairman, should the Senate decide to confirm me for this very 
important position, I look forward to carrying out the mission of the 
CPSC. I can assure you, that with two young daughters, I think of 
consumer product safety every single day. I look forward to bringing 
this interest and concern to the Consumer Product Safety Commission.
    Once again, Mr. Chairman and Members of the Committee, I am honored 
to appear before you today and am prepared to respond to your your 
questions.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name: Harold D. Stratton, Jr., (Hal Stratton).
    2. Position to which nominated: Commissioner and Chairman, Consumer 
Product Safety Commission.
    3. Date of Nomination: March 1, 2002.
    4. Address: (Information not released to the public).
    5. Date and place of birth: 12/6/50, Muskogee, Oklahoma, USA.
    6. Marital status: Married, Theresa Rivera Stratton.
    7. Names and ages of children: Maria Alexandra, 7; Claire Qingya, 
2.
    8. Education: John Marshall High School, Okla. City, 9/66-5/69, 
High School Diploma; Univ. of Okla., 9/69-5/73, B.S., Geology; Univ. of 
Okla. 9/73-5/76, J.D., Law.
    9. Employment record: Coors, Singer & Broullire (and successor 
firms), 1977-1982, Attorney; Harold D. Stratton, Jr., P.A., 1982-1984, 
Attorney; Stratton & Barnett, P.A., 1984-1986, Attorney; N.M. Attorney 
General, 1987-1990, Attorney General; Stratton & Cavin, P.A., 1991-
present, Attorney. The location of all firms is Albuquerque, NM except 
the Office of the Attorney General which is in Santa Fe, NM.
    10. Government Experience: Member, New Mexico House of 
Representatives, 1979-1986; Western Conference, Council of State 
Governments, 1981-1984; National Conference of State Legislators, 1979-
1986; National Conference of Commissioners on Uniform State Laws, 1985-
1986; New Mexico Judicial Council, 1981-1982; BLM Citizens Advisory 
Committee, ABQ Dist., 1983-1986; New Mexico Attorney General, 1987-
1990.
    11. Business Relationships: Stratton & Cavin, P.A., shareholder Rio 
Grande Foundation, President DCI Associates, LLC, contact consultant 
Americans for Technology Leadership, advisory board member.
    12. Memberships: Cherokee Nation of Oklahoma (Registry No. C 2141). 
Professional Memberships: (a) State Bar Associations: New Mexico Bar 
Association; Oklahoma Bar Association; Colorado Bar Association; Texas 
Bar Association. (b) Other Attorney Organizations: State Attorney 
General Emeritus (affiliate of the National Association of Attorneys 
General); Native American Bar Association; United States Supreme Court; 
U.S. Court of Appeals for the Tenth Circuit; U.S. Court of Appeals for 
the Fifth Circuit; U.S. District Court, District of New Mexico; U.S. 
District Court, District of Colorado; U.S. District Court, Western 
District of Oklahoma; U.S. District Court, Northern District of Texas.
    13. Political affiliations and activities: (a) List all offices 
with a political party which you have held or any public office for 
which you have been a candidate: Co-chair, Republican Lawyers for Bush, 
New Mexico, 2000; Bush 1988, Citizens Against Crime, 1988; New Mexico 
Republican Legislative Campaign Committee, 1979-1986; Republican 
National Committee, NM Legal Counsel, 1984-1987; New Mexico State 
Republican Party Central Committee; Bernalillo County Republican Party 
Central Committee; New Mexico House of Representatives, 1979-1986; New 
Mexico Attorney General, 1987-1990.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years: None except those listed in 13(a) above.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years: New Mexico State 
Republican Party, $1,000, 2001; People for Pete [Domenici], $1,000, 
2001; Heather Wilson for Congress, $1,000, 2002.
    14. Honors and Awards: Philips Petroleum, Petroleum Engineering 
scholarship, 1969; Union Oil of California geology scholarship, 1969-
1972; George Wyatt Brown geology scholarship, 1972-1973; George Wyatt 
Brown geology award, 1972; Distinguished Military Graduate, Univ. of 
Okla. R.O.T.C., 1973.
    15. Published Writings: Published works which I can recall and 
provide information about are: Office of the Attorney General: History, 
Powers & Responsibilities, 1845-1990, Hal Stratton and Paul Farley, 
1990; Report of the Attorney General: Crime in New Mexico, Office of 
the New Mexico Attorney General, 1990; Wall Street Journal, opinion 
piece, June 10, 1988; States Derail Microsoft Deal, ABQ Journal, April 
16, 2000; The Microsoft Mess, IBD, October 10, 2000; Gale Norton as 
Sec. of the Interior, ABQ Journal, February, 2001; N.M. Needs a 
President on the Fast Track, ABQ Journal, Sept. 13, 2001; Atty. Gen 
Madrid and MSFT, ABQ Journal, July 19, 2001.
    From time to time as a New Mexico legislator, I published 
newsletters to inform my constituents of legislative initiatives and 
developments related to my district.
    As New Mexico's Attorney General, my office occasionally published 
a newsletter covering current developments in the Office of Attorney 
General and distributed it throughout the state.
    16. Speeches: I have not delivered any formal speeches which are 
responsive to the question.
    17. Selection: (a) Do you know why you were chosen for this 
nomination by the President? I believe I was chosen by the President as 
a result of my broad public service and private sector work experience, 
and my general reputation for honesty, independent judgment and a 
strong work ethic. My service as New Mexico's Attorney General and as a 
four-term New Mexico State legislator provides me with a unique 
experience and pragmatic understanding of the demands and essential 
inter-relationships of the Executive, Legislative, and judicial 
branches of government. Those positions also provided me with 
administrative, agency management and substantive consumer affairs 
experience. Moreover, combined with my experience as founding partner 
of the law firm Stratton & Cavin, P.A. in Albuquerque, NM, I have a 
keen awareness of the power of investigative and litigation authority 
as well as the attendant costs and risks. Finally, I am committed to 
public service and I bring to this task a willingness to learn from the 
Commission's staff, other Commissioners, this Committee and others in 
the consumer products community.
    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment. I believe 
my management and consumer protection experience in the New Mexico 
Attorney General's office qualifies me for this position, as does my 
experience in managing my law firm. As Attorney General I was the 
primary State official responsible for protecting consumers through the 
Consumer Protection Division of the attorney generals office. The 
office was also involved in statewide criminal prosecutions emphasizing 
white collar and consumer crime. This gives me a solid, practical 
perspective on the enforcement of consumer laws, related criminal 
violations and prosecutions, and civil investigatory procedures.
    I also have considerable experience in legislative matters from 
serving four terms in the New Mexico legislature. That service provides 
me with knowledge of consumer and related legislative issues as well as 
an appreciation for the importance of considering legislative intent. 
My service in the legislature provides me with a heightened awareness 4 
and sensitivity of this Committee's interest in and responsibility to 
the Commission. I believe this legislative perspective can also be a 
positive asset for the Commission.
    Finally, as a practicing lawyer and former Attorney General, I 
believe I have a good grasp of administrative law and procedure and the 
concept of due process of law as applied to administrative agencies.

    Senator Dorgan. Mr. Stratton, thank you very much. Let me 
ask you a series of questions. I'm trying to understand a bit 
about how you would administer the CPSC and also what your 
objectives would be. You described several of them, including 
consultation with other agencies and consumer education.
    The first question is why do you want to be the Chairman of 
the Consumer Product Safety Commission?
    Mr. Stratton. Mr. Chairman, I have been in public service, 
and I want to do some more public service. I've been out in the 
private sector for the last 10 years, and I've enjoyed that, as 
well, but there's nothing like being a public servant, and I've 
done it, and I look forward to doing it again.
    Now, the CPSC is of particular interest to me, because, 
notwithstanding some of the things I've read in the newspaper, 
I've had a very active effort in consumer protection. It's very 
important. Consumers are what run this country, and they do 
need to be protected from the harms that the Consumer Product 
Safety Act provides. So it's a very important mission.
    As you indicated earlier, with two kids, 7 and 2, it just 
brings home the importance of that, and it gives me a chance to 
run an agency that I think is--it's certainly one of the more 
important consumer agencies in the government.
    Senator Dorgan. What do you think of Ralph Nader?
    Mr. Stratton. Mr. Chairman, I'm sorry, you mean as an 
individual?
    Senator Dorgan. Well, the reason I'm asking the question 
is--I guess it's a philosophic question, really, in terms of 
consumer products and so forth. Several decades ago, Mr. Nader 
raised the question of unsafe automobiles, and we went through 
a long period of debate about these issues. The automobile he 
raised questions about caught fire when it was rear-ended 
because of the way the fuel tank was placed. He raised a lot of 
questions about the automobile industry and became very 
controversial. He has since become a consumer advocate, and I'm 
just curious how you view--perhaps I shouldn't have used Ralph 
Nader, per se--but how do you view the consumer advocates out 
there, perhaps symbolized by him?
    Mr. Stratton. Mr. Chairman, I think, of what I know--I 
mean, that's a very broad question, but, of what I know, I 
think they're an important stakeholder in the consumer safety 
area, and I think they play an important role before the 
Commission.
    Senator Dorgan. If one is a pro-business, free-market 
person, one, perhaps, comes down on the side of saying, you 
know, ``I don't like this notion of intrusion and constantly 
taking on those that are making these products, whether it's 
child seats or automobiles, for that matter.'' We, of course, 
will want someone in the Consumer Product Safety Commission who 
says, ``Look, I'm here on behalf of the American consumer and 
the American public, paid by taxpayers' dollars, and I'm going 
to be a tiger on these issues of demanding that products be 
safe; and when not safe, I'm going to take on the companies who 
produce them.'' How do you feel about that charge?
    Mr. Stratton. Mr. Chairman, that is a charge I've had 
before as a consumer advocate at the attorney general level, 
and I believe in it very strongly. I don't want to filibuster 
you, and I certainly don't intend to do that, but I would not 
call myself a pro-business person. I know some people maybe 
have, but there are a lot of businesses out there that, after 
my service as attorney general, didn't consider that. I am a 
free-enterprise, free-market person, and I think that really is 
more pro-consumer than it is pro-business.
    Senator Dorgan. Tell us, if you would, a bit about what you 
did as attorney general of New Mexico, because most attorneys 
general, of course, are the top consumer advocates in their 
states. They're the top law-enforcement people. Your office, 
perhaps, as the office in North Dakota and many others do, had 
the charge of consumer protection. Can you tell us a bit about 
what you did as attorney general in New Mexico?
    Mr. Stratton. I'd be happy to, Mr. Chairman. In fact, you 
are absolutely correct, we really are the only consumer 
protection agency in New Mexico, so we do serve that role.
    The first thing that we do that I think is very important, 
and the CPSC has a role in this, too, is we have an 800-number 
that consumers can call. And when I was there, we got 
approximately 100 calls per day from consumers needing consumer 
help. We got almost another 100 on our normal telephone line. 
And although that doesn't make headlines, and that's not 
something that shows up in the newspaper all the time, that is 
a very important role, to have people have a place to call.
    During my service as attorney general, I think there was 
one particular case which exemplifies, not only my philosophy 
there, but exemplifies what my philosophy is going to be at the 
CPSC, and that was a case that's still talked about called the 
``Frontier Ford'' case. We had a particular car dealership that 
was abusing consumers. It was the tenth largest car dealership 
in the country. It also provided half of the advertising to all 
the media outlets in New Mexico, and was a big employer, but 
they were doing the kind of things which we don't have time to 
go into here today. But we talked with them, and they wouldn't 
stop it, so we proceeded to sue them to get consumers' money 
back and to enjoin them from engaging in the kind of activity 
that they were engaging in--locking people in rooms without 
insulin, throwing people's keys on the roof, lying to people 
about what they sold consigned cars for, and many other things 
I'd rather not mention that are subject of affidavit, but that 
I don't know personally. So we proceeded to sue the company, 
and we recovered $1.2 million for consumers in that particular 
case, from one company.
    Now, that was a lot of money in New Mexico, in a state of 
1.3 million. But that company eventually went out of business. 
And the issue was, well, are you going to put a company out of 
business over a consumer issue? And sometimes you have to. And 
I know that's an issue at the Commission. You have businesses 
who, from time to time, say, ``We can't do this recall. We 
can't do this remedial action. It'll put us out of business.'' 
Well, if they're violating the statute, which is the most 
important thing here, and that is to enforce the Consumer 
Product Safety Act--I mean, that is what the job is--then you 
go out and you do what you need to do, and you let the chips 
fall where they may, and you've got a charge, and that's the 
way you handle it.
    That case took up a lot of time and was a very important 
case, so that was one of the cases. I don't know how much you 
want. I can go through a number of other things we did, 
telemarketing fraud, charitable contribution issues, art 
fraud--we have a lot of art fraud in the State of New Mexico 
because of the art community--pyramid promotion scams that we 
went into and stopped.
    And then, maybe even more importantly, in New Mexico, we 
were the lawyer for consumers at the Public Utility Commission, 
so we represented consumers in regard to rate hearings for 
their electricity. And we possibly saved them more money doing 
that than maybe by doing all the other things that we did.
    Senator Dorgan. Mr. Stratton, perhaps because of where I 
come from, I've never considered the issue of art fraud. I 
guess we would think art fraud is bad art.
    [Laughter.]
    Senator Dorgan. I think I understand what you mean, coming 
from New Mexico and serving as attorney general. Let me ask one 
additional question. I asked you to recite what you had done 
with respect to consumer protection as attorney general, and 
I'm aware of your accomplishments because I've reviewed your 
record, but I wanted you to be able to put it on the record, as 
well.
    There is one thing that I read about you that concerned me 
just a bit, and I would like you to respond to it. When you 
were attorney general, you wrote to the Wall Street Journal, 
taking your fellow attorneys general to task on an issue of 
merger guidelines, an area of business regulation. You said, 
quote: ``They are using the cover of `consumer protection' to 
impose their anti-business, pro-government-regulation views on 
the entire nation and are bypassing the legislative process to 
put in place `enforcement guidelines' that Congress itself 
refuses to pass.'' And I believe this dealt with airline 
advertising.
    Then there was a ``compact'' dealing with horizontal 
corporate mergers in which 44 attorneys general signed, but you 
did not, saying, ``We have enough government interference in 
our economy without a new group joining the anti-business 
parade.''
    That's part of the reason I asked you the question before 
about being pro-business. All of us are pro-business. Business 
is what represents the economic engine in this country. 
However, the head of the Consumer Product Safety Commission has 
to be a tiger and an advocate on behalf of consumers with 
respect to product safety. When a business produces a product 
that's unsafe, we need someone that's going to move very 
quickly. It won't be considered pro-business to move quickly 
against those that produce an unsafe product, but it will be 
considered part of the charter of the head of the CPSC.
    So if you will, respond to me on the two issues that I just 
raised that were also part of the briefing here. Those were 
both when you were attorney general, and your statements with 
respect to them suggest a slightly different mindset than when 
I asked the question about being pro-business. Would you 
respond to that for me?
    Mr. Stratton. Yes, Mr. Chairman. Thank you for the 
opportunity to respond to this. I've been looking forward to it 
for some time now. The airline guidelines that the National 
Association of Attorneys General put together were illegal. And 
the United States Supreme Court found that specifically, to the 
guidelines. They found that they were preempted by the ADA, 
which is the Airline Deregulation Act, and that the power to do 
what we were trying to do as states attorneys general really 
lay in the Federal Trade Commission and in the Department of 
Transportation.
    So that was the first problem. And if there's something, in 
my opinion, that any attorney general, or any attorney 
shouldn't be doing, that is going out and acting illegally. And 
we knew it was illegal when we were doing it. It didn't matter 
to some of them. All of these are my friends, by the way. This 
is nothing personal with my fellow attorneys general. We're a 
very close-knit group. But that is first and foremost. It was a 
federal government function, just like the CPSC has functions, 
the Federal Trade Commission, as well as the Department of 
Transportation have functions. And that was their function. The 
state attorneys general didn't like the way it was going to be 
done, so they decided to come in and usurp the power of the FTC 
and the DOT. The U.S. Supreme Court found that they shouldn't 
do it.
    In New Mexico, we didn't have one single complaint about 
airline advertising. Yet they wanted me, in my small state, to 
throw in with them--California, Texas--and support these 
guidelines in their states. We weren't going to do it. We were 
doing our job in the state of New Mexico, and we had an Unfair 
Practices Act which clearly took care of that.
    Now, there was--you mentioned the horizontal merger 
guidelines. They were attempting to do that. They were 
attempting to regulate interstate mergers the same way as the 
Justice Department and the FTC did, and I opposed those, as 
well, which they were illegal, as well.
    And one other area that they were trying to do it in was 
car rental. And I've got to tell you, I was awfully tempted to 
go along on the car rental situation, because there was a lot 
of abuse going on, but we had other mechanisms with which to do 
that, rather than enter into an illegal compact amongst the 
States and try to usurp the power of other federal agencies.
    Senator Dorgan. Mr. Stratton, thank you for your response.
    Let me call on the Ranking Member of the Full Committee, 
Senator McCain.

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. Thank you, Senator Dorgan, and thank you 
for holding this hearing. I believe that Mr. Stratton is a 
highly qualified individual. I congratulate him, and I thank 
him for his patience throughout the process. We all know how 
important the Consumer Product Safety Commission is, and we 
need you there for it to be working with all of its members. As 
the Chairman knows, the 6-month statutory deadline that allows 
the CPSC to perform its duties with only two commissioners 
expires on May 1, so it's important that we move as quickly as 
possible. We don't want the agency to cease its functions.
    I didn't quite get your explanation on the airline 
advertising, but I'll accept it anyway, Mr. Stratton.
    I thank you, Mr. Chairman. I look forward to working with 
you, Mr. Stratton. And congratulations, again, not only for 
this appointment, but your previous service to the State of New 
Mexico, of which Arizona was once part of the New Mexico 
Territory, as you recall.
    [The prepared statement of Senator McCain follows:]

   Prepared Statement of Hon. John McCain, U.S. Senator from Arizona

    Good afternoon. I want to thank Chairman Hollings for holding this 
nomination hearing and I know that the Administration, and in 
particular, Mr. Stratton, are appreciative of his nomination to serve 
the nation in the important position of Chairman of the Consumer 
Product Safety Commission (CPSC). I thank him for his patience 
throughout this process.
    The Consumer Product Safety Commission is charged with the 
responsibility of protecting consumers ``against unreasonable risks of 
injuries associated with consumer products.'' The CPSC works to ensure 
that the more than 15,000 products under its jurisdiction are safe for 
consumer use. It is important that those who serve on the Commission 
have a firm grasp of the authority and limitations of the Consumer 
Product Safety Act, and take appropriate action to fulfill the 
Commission's mandate.
    Mr. Stratton's background demonstrates that, not only is he a 
skilled lawyer who has worked in private practice for over 10 years, 
but he also holds an appreciation for public service, having served in 
the New Mexico House of Representatives and as New Mexico's Attorney 
General. Mr. Stratton has been described by his former Deputy Attorney 
General as someone who is ``always cautions about following the law and 
living within the restrictions imposed by the law. He does not overstep 
his authority.''
    I believe the nominee is extremely qualified for this position and 
will work to fulfill his duties within the bound of his authority, and 
in the best interest of this nation's consumers.
    Mr. Chairman, as you are aware, the six-month statutory deadline 
that allows the CPSC to perform its duties with only two commissioners 
expires on May 1st. Thus, the timely confirmation of Mr. Stratton is 
becoming increasingly important.
    Again, thank you Mr. Chairman. I hope that we can approve this 
nomination promptly and enable timely action by the full Senate.

    Mr. Stratton. Thank you, Senator.
    Senator McCain. We were very glad to have been split off. I 
thank you, Mr. Chairman.
    [Laughter.]
    Senator Dorgan. Perhaps New Mexico is, as well.
    [Laughter.]
    Senator Dorgan. Maybe not.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Mr. Stratton, the first area I want to explore with you 
involves individual responsibility and how you look at that in 
connection with the kind of decisions that come before the 
Consumer Product Safety Commission. You've stressed this in 
your writings, and again, as with the free-market matter, this 
is an area that I wholly agree is an important principle. It's 
a fine one, and it's got to be respected. However, at the same 
time, we know that people are human, and, particularly, you may 
have some people who don't use a product perfectly and can end 
up getting hurt as a result, particularly children and seniors.
    Tell us, if you would, how you would balance the question 
of individual responsibility, which I think you're right to 
stress, with the need to have government on the side of people 
who really don't have a lot of clout, kids and seniors, and 
find it hard, for example, to stand up to these big companies.
    Mr. Stratton. Senator, thank you for that question. I think 
I would not look at it as a balancing test, because I don't 
believe, when you look at the Consumer Product Safety Act, and 
you look at the mission of the Commission, that it talks about 
balancing personal responsibility. I don't think that's an 
issue, frankly. I mean, I know it's an issue from an 
evidentiary matter, but I believe that the issue is whether the 
product creates an unreasonable risk to injury. And if it does, 
then there's a mandate to do something about it. And I don't 
see, absent some other type of facts being present, individual 
responsibility really entering into that mandate.
    Senator Wyden. Well, that's a very good answer. That was 
what I was hoping to hear. There's no question in my mind that 
there are instances of products that are defective that you've 
really got to stand up for the consumer for, and you've got to 
do it even if people aren't using them perfectly, because the 
world doesn't always play out that way.
    Let me ask you, along the same lines that I talked about 
earlier, with respect to free-market principles, where you 
would draw the line between voluntary standards and mandatory 
standards at the Commission? As you know, the Commission tries 
to use voluntary standards to the greatest extent possible. 
That's something that, again, I think makes sense. It's a good 
use of resources. At the same time, there have got to be 
instances where you do use the mandatory approach, which, of 
course, carries the force of law. Companies can be fined for 
compliance. When, in your view, in terms of just conceptually, 
do you think mandatory standards are appropriate?
    Mr. Stratton. Senator, once again, you have done this work 
for the Commission, because you have put in the Consumer 
Product Safety Act that provision as to when you do it and when 
you don't do it. And I believe the Act requires the Commission 
to look at voluntary standards when they would eliminate or 
adequately remediate the risk of injury and there's a 
substantial likelihood of compliance.
    So if you have a voluntary standard, in every fact 
situation, you look at those and determine whether--and there's 
another part of that also that really isn't that section of the 
statute, and that is that the Commission needs to set up a way 
to monitor that to make sure that they know that. Because if 
the Commission doesn't know that, it doesn't do very much good.
    So if the standard doesn't meet those criteria, then you 
have to move to the rulemaking proceeding, I think, and enact a 
mandatory standard.
    Senator Wyden. There is one other area that I wanted to 
explore with you on this round of questions. You've got big 
decisions coming up at the Consumer Product Safety Commission, 
decisions with respect to arsenic and various kinds of 
materials that children may come in contact with on 
playgrounds. There are some significant questions of consumer 
safety coming up. You cannot prejudge any of those, and I don't 
want to ask you to do so today, but I think it would be very 
helpful in terms of getting a sense of how you would approach 
these kinds of questions, whether there are certain 
principles--other than the Act, of course, and I appreciate 
your earlier answers where you've made it clear that you're 
committed to following the Act--but tell us, if you would, 
given the fact that there are some big decisions coming up, 
give us a sense of how you're going to go about tackling them, 
recognizing that you certainly can't comment on things like 
that at this point.
    Mr. Stratton. Mr. Chairman, I think the way you have to go 
about this, and I think it's--I think, you know, as you're well 
aware, the CPSC is a quasi-judicial, or an adjudicatory body, 
and so you're sitting there like a judge in a way, and I think 
you have to go about it by looking at all the evidence that's 
presented to you. Although I haven't had an opportunity to be 
out there, I'm told that they have an excellent staff, great 
scientists, great engineers, and they're involved in making all 
these decisions. These aren't just decisions that I come in and 
make, and there are two other commissioners, after all. But I 
think the only way I can answer that is to say look at the 
evidence as objectively as possible and try to make the right 
decision, with the continuing mission in mind that we're trying 
to make the marketplace as safe as we can for consumer 
products.
    Senator Wyden. The only other question I wanted to ask 
today--most of your previous record, you know, relates to 
consumer fraud. But the Consumer Product Safety Commission 
really isn't aimed primarily at outright fraud. It's obvious 
that products can be unsafe even if manufacturers are well 
intentioned and honest. What would you cite as your big 
consumer accomplishments up to this point, other than in areas 
combating fraud?
    Mr. Stratton. Well, Mr. Chairman, I think it's--those are--
we call it business practices, actually, as opposed to safety 
practices, so I think the biggest one, I've already talked 
about, and I don't know that I've had any records--I certainly 
haven't served on the Commission, so I can't cite you anything 
there. And I don't think unless you've served on the Commission 
you can cite any record of doing anything for the government as 
far as consumer safety. But I think I've pretty well run down 
the record for you the best I can of the types of consumer 
things I've done.
    Senator Wyden. Well, let me wrap up, then, by saying, given 
the limited resources at the Consumer Product Safety 
Commission, you're going to have to make some choices. You're 
going to have to make some choices about what your priorities 
are going to be. And, if you would, wrap up for me by saying a 
little bit about what principles you'd use in setting your 
priorities, if confirmed, at the CPSC.
    Mr. Stratton. Senator, I think the main principle is--and 
you're certainly right about the priorities, and you're 
certainly right about the limited resources. That's one of the 
things I've heard about the most as I've dealt a little bit 
with some of the people out there. But I think what you have do 
is, you just have to prioritize based on the degree of risk. I 
mean, we want to find the worst products and work on them first 
and get them out of the marketplace. I think you just have to--
I'm not prepared today to set that up for you, because I don't 
know the record or the evidence at the Commission, but I think 
what we want to do is get the worst products and the worst 
doers out of the way and then proceed down the line.
    Senator Wyden. Thank you, Mr. Chairman.
    Senator Dorgan. Senator Fitzgerald. Senator Fitzgerald is 
the Ranking Member of the Subcommittee on Consumer Affairs.

            STATEMENT OF HON. PETER G. FITZGERALD, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Fitzgerald. Well, thank you, Mr. Stratton, for 
being here, and congratulations. I enjoyed the opportunity to 
visit with you in my office. I think you have an outstanding 
record, both in the private sector and in public service, 
having served as the attorney general of New Mexico, and I 
think you'll make an outstanding Chairman and Commissioner on 
the Consumer Product Safety Commission. And I just look forward 
to working with you. In this Committee, we're very actively 
involved in consumer affairs, and look forward to working with 
you. And I see nothing in your background, really, that needs 
any clarification, in my judgment. And I just want to 
congratulate you on your accomplishments to date, thus far, and 
I hope you have smooth sailing through the process here.
    Mr. Stratton. Thank you, Senator.
    Senator Fitzgerald. Thank you.
    Senator Dorgan. Senator Fitzgerald, thank you very much.
    Let me ask another question. As we have obviously perused 
all of the records that have been submitted to us about your 
background and your work, there is one question regarding your 
role as the president of a non-profit organization, the Rio 
Grande Foundation. On its website, in the announcement of its 
creation it states: ``The Rio Grande Foundation promotes public 
policy founded upon the principle of limited government, 
economic freedom, and individual responsibility.''
    In the context of the Consumer Product Safety Commission, 
which, by its charter, is not about limited government, it's 
about using that agency to take a look at all the businesses 
that are producing products and trying to find those that are 
putting unsafe products on the market and prevent that from 
happening. So describe to me how one reconciles what this 
organization, the non-profit, says, and what the role of the 
Consumer Product Safety Commission Chairman requires and how 
you will straddle that.
    Mr. Stratton. Yes, sir. Well, the Rio Grande Foundation is 
a completely different concept than what we're here about 
today. New Mexico, we believe is--we're living in the greatest 
state in the best place in the country, but we have some 
economic problems down there. We're No. 1 in poverty. We're 
49th in per capita income. We're 50th in growth of per capita 
income. We've got an 8\1/2\ percent income tax and some other 
higher taxes. And it's always been my feeling, throughout my 
service, that we needed a think tank to provide some ideas 
about how to resolve these types of problems. And the primary 
focus of the Rio Grande Foundation, notwithstanding what the 
mission statement says, is the tax structure in New Mexico, the 
spending structure, the education system, and those types of 
things.
    Let me just put on the record now, in addition, to kind of 
conclude those thoughts, the issue of the free-market system, 
which we all believe in here today. The first thing I'll say 
about is, it's not perfect. There's no system that I know of 
that is perfect. And it's not anarchy. It is a system of laws 
that we've set up, which is protected, frankly, by laws that 
are passed here.
    And I see the Consumer Product Safety Act as a plug in the 
dike there for harmful consumer products out there when it 
comes to the free-market system, and I don't see it 
inconsistent at all. All of us, I think, believe that the 
government is supposed to protect its citizens from harm, 
whether it's the events of 9/11 or foreign threats or hazardous 
consumer products. So I wouldn't be doing this unless I saw the 
visions to be completely compatible.
    Senator Dorgan. There are some, I must say, who don't feel 
that way, though. I mean, there are some who feel that if 
someone produces an unsafe product, it means that eventually 
people will experience it being unsafe and not purchase it, and 
the free-market actually will ultimately correct itself. I 
don't share that view. But there are some who say: ``just take 
a hands-off approach.'' We have some--not in Congress, 
fortunately--but we have some people writing to us saying there 
ought not be inspection of meat, for example. If people are 
producing unsafe meat making people sick, eventually no one 
will buy from them and that's the way to resolve this, through 
the free-market system.
    So there are people on that side of the issue. I wouldn't 
want someone like that to come to the Consumer Product Safety 
Commission, and your responses today tell me that that's 
certainly not your view.
    I think Senator Wyden's questions go to the point. We hope 
that we have a Consumer Product Safety Commission that is 
active, aggressive, and that, at the end of the term of the new 
Chairman of the Consumer Product Safety Commission, that we can 
look back and say, this was a person that was a real tiger on 
issues where the American consumers, and especially children, 
were being injured by unsafe products. He used, or she used, 
the tools of that office aggressively and effectively relative 
to the charter of that Commission. Speaking for myself, that 
would be my aspiration, and I believe of others on the 
Committee, as well.
    I think your responses today have been helpful to us, Mr. 
Stratton. Again, with all of those who come to the call of 
public service, our country thanks those who offer themselves 
to public service. Our Committee will certainly evaluate your 
response today, but your responses have been very helpful to 
me, I must say.
    Let me include in the record a statement by the Full 
Committee Chairman, Senator Hollings, who was not able to be at 
this hearing.
    I believe we perhaps, also have some questions that we will 
want to direct and ask that you respond in writing. Mr. 
Stratton, do you have any other final concluding comments?
    Mr. Stratton. No, sir.
    Senator Dorgan. All right. Well, this Committee appreciates 
very much your attendance today. And, as I said, I think your 
responses have been helpful to us, and you've been very 
forthcoming.
    [The prepared statement of Senator Hollings follows:]

            Prepared Statement of Senator Ernest F. Hollings

    Americans rely upon the Consumer Product Safety Commission to 
protect the public from unsafe consumer products. And the stakes could 
not be higher. Each year there are 28 million injuries and 21,000 
deaths linked to a wide range of consumer products under the agency's 
jurisdiction.
    The CPSC conducts research on potential product hazards, educates 
the public and the media about potentially dangerous products, develops 
voluntary standards with industry, enforces mandatory standards, and 
sometimes bans or recalls defective or dangerous products.
    Without question, this Commission has played an important role in 
preventing thousands of injuries and deaths. Such an impact is 
difficult to quantify because we cannot know who or how many people 
would have been injured had some of the products stopped by the CPSC 
remained on the market. One of those injuries might have been inflicted 
on someone sitting in this hearing room, or someone we know. Therefore, 
we need a strong leader at the helm of the CPSC to see that these laws 
are strongly enforced for the protection of our citizens, especially 
those least able to protect themselves.
    The Administration has nominated Harold D. Stratton, Jr. to be 
Commissioner and Chairman of the Consumer Product Safety Commission. 
Mr. Stratton earned his law degree at the University of Oklahoma, and 
from 1979 to 1986 he served as a member of the New Mexico House of 
Representatives. He opened a private law practice in 1982, and later 
formed a partnership, Stratton and Barnett, in 1984. From 1987 to 1990, 
Mr. Stratton served as Attorney General for the State of New Mexico. He 
is now a partner at the law firm of Stratton & Cavin.
    While Mr. Stratton has a long political background, I am concerned 
about his lack of experience in product liability law and consumer 
safety issues. The Chairman of the CPSC needs a strong understanding of 
these matters to be an aggressive advocate for protecting consumers. 
Therefore, I need Mr. Stratton to answer these questions fully and 
completely as we consider his nomination. Because Chairman of the 
Consumer Product Safety Commission is a position of trust, we must 
trust that he has the experience, ability and courage to strongly 
enforce the law and protect the American people from dangerous 
products.

    This hearing is adjourned.
    [Whereupon, at 3:10 p.m., the hearing was adjourned.]

                            A P P E N D I X

  Written Reponses to Post-Hearing Questions from Senator Bill Nelson
Fire Safety
    Question 1. Mr. Stratton, I am very concerned about fire safety 
issues. Hundreds of deaths and terrible injuries, to say nothing of the 
enormous property damage, occur every year in this country from 
upholstered furniture fires alone. I understand that the Commission has 
been considered an upholstered furniture fire safety rule for 7 years, 
and that the Commission staff has presented a recommendation to the 
Commission for a proposed rule. Do you have a sense for what will be 
your timing on considering this issue?
    Answer: I agree that fire safety issues are among the most 
important issues before the Consumer Product Safety Commission (CPSC). 
I strongly believe that time is of the essence with all safety issues, 
and the Commission should act as quickly as possible on these issues, 
including the initiation of rulemaking proceedings. One of my goals is 
to significantly shorten the decisionmaking process at the CPSC. If 
confirmed by the Senate, I hope to resolve action on upholstered 
furniture fire safety issues as quickly as possible upon assuming the 
duties of Chairman. I am aware that this issue is of great importance 
to the Members of the Committee; Senator Rockefeller expressed a 
similar concern to me. Please know that I plan to establish an open 
dialog with the Committee and its Members on the critical issue of fire 
safety and other matters before the Commission.
    Question 2. Mr. Stratton, the Commission itself has said that--and 
I quote--``[s]ocietal costs associated with furniture fires are among 
the highest associated with any product subject to the Commissions 
authority'' \1\ and that upholstered furniture fires are ``one of the 
biggest killers among all products under CPSC's jurisdiction.'' \2\ The 
Commission has also stated that ``CPSC staff believes that a small open 
flame performance standard for upholstered furniture could effectively 
reduce the risk of death, injury, and property loss resulting from 
small flame ignitions.'' \3\ As the Chair of the Commission, would you 
permit the staff recommendation on furniture fire safety to come to a 
vote before the Commission?
---------------------------------------------------------------------------
    \1\ 64 Fed. Reg. 64084, Nov. 22, 1999.
    \2\ Letter to Sen. Robert C. Byrd from Maureen O'Leary, Director, 
Congressional Relations, Consumer Products Safety Commission, April 2, 
2001.
    \3\ 63 Fed. Reg. 13017, March 17, 1998.
---------------------------------------------------------------------------
    Answer: I am not familiar with the details of the Commission's 
staff recommendations on upholstered furniture fire safety. The tragic 
deaths and injuries that result from such fires are disturbing and 
should be prevented. Should I be confirmed by the Senate and assume the 
duties of Chairman, I will promptly become familiar with this issue. I 
will certainly review all of the evidence before the Commission, 
discuss the issue with the staff and the other commissioners, and take 
other reasonable and necessary acts to ensure that upholstered 
furniture is as safe as possible for consumers.
Arsenic Treated Wood
    Question 3. As you may be aware, last year an amendment I sponsored 
on the VA-HUD appropriations bill, the appropriations bill which 
includes the EPA and the Consumer Product Safety Commission, directed 
the EPA and the Consumer Product Safety Commission to study whether 
arsenic-treated lumber playground equipment was safe. The Consumer 
Product Safety Commission provided an interim report to me on February 
15, 2002, regarding the study but, the report did not include any 
conclusions because the study had not progressed to that stage.
    This is a matter of grave importance to the people of Florida and 
the country because playgrounds in Florida and in other parts of the 
country have closed due to high concentrations of arsenic in the soil 
which leached from the playground equipment.
    I would like your commitment to continue that study, to allocate 
the resources necessary to complete the study as soon as possible and 
to provide me a report on your conclusions as soon as possible.
    Answer: I agree that the final CPSC study on arsenic treated lumber 
playground equipment--with conclusions and recommendations--should be 
completed quickly. I will, of course, make sure the Committee receives 
the results as soon as possible. I appreciate your bringing this 
partially completed study to my attention. I know this is a matter of 
great concern to the Committee. Senator Wyden also raised the issue of 
arsenic treated lumber at my confirmation hearing. I want to make sure 
our playgrounds are safe for all of our Nation's children.
                                 ______
                                 
           Written Responses to Post-Hearing Questions from 
                     Senator John D. Rockefeller IV

Fire Safety
    Question 1. I hope that you share my concerns regarding fire 
safety, and the hundreds of deaths and terrible injuries, to say 
nothing of the enormous property damage, that result in this country 
every year due to upholstered furniture fires. As you are no doubt 
aware, the Commission has considered an upholstered furniture fire 
safety rule for several years. It is my understanding that the 
Commission's professional staff has presented a recommendation to the 
Commission for a proposed rule.
    Can you let the Committee know your sense of how the Commission 
should proceed on this issue, and the approximate timetable?
    The Commission is on record as saying:
    1. ``The societal costs associated with furniture fires are among 
the highest associated with any product subject to the Commission's 
authority.''
    2. Upholstered furniture fires are ``one of the biggest killers 
among all products under CPSC's jurisdiction.'' and,
    3. ``CPSC staff believes that a small open flame performance 
standard for upholstered furniture could effectively reduce the risk of 
death, injury, and property loss resulting from small flame 
ignitions.''
    As the Chairman of the Commission, are you inclined to permit the 
staff recommendation on furniture fire safety to come to a vote before 
the Commission?
    The United Kingdom has much more stringent standards for furniture 
flammability than the United States. In this country, the State of 
California has similar furniture fire safety regulations. Data suggest 
that the rate of deaths and serious injuries resulting from furniture 
fires in California and throughout the United Kingdom is lower than 
that in the remainder of the United States.
    As Chairman, do you believe it would be appropriate for the 
Commission to examine the lower rate of deaths and serious injuries in 
those jurisdictions to determine if a link could be established between 
the flammability standards and the lower death and accident rates?
    If the link can be established, would that tend to convince you to 
have the Commission promulgate furniture fire safety regulations for 
the whole country?
    In 1992, the CPSC rolled back fire safety requirements for 
children's pajamas, exempting so-called ``snug fit'' pajamas. Fire 
safety groups, including the Shriners, have repeatedly called for 
reinstating the stronger standard, arguing that it has resulted in 
increased deaths and injuries to children. Several bills in Congress 
are intended to improve flammability safety standards for children's 
sleepwear.
    Would you comment on whether, with 10 years worth of evidence 
related to the risks posed to children by this change in the agency's 
regulatory requirements, it is now time for the CPSC to revisit the 
issue of fire safety for children's pajamas?
    If not, why not?
    Answer: Without having the benefit of reviewing the evidence before 
the Commission on furniture fire safety, I cannot at this time prejudge 
how the Commission should proceed on this critical life-and-death 
issue. I assure you, however, that it is my belief that time is of the 
essence with all safety issues before the Commission. I intend, if 
confirmed as Chairman, to resolve every issue, including rulemaking 
proceedings, as quickly as reasonably possible. Senator Nelson also 
expressed his concerns over this issue, so I am aware of its importance 
to Members of the Committee.
    It is very appropriate to examine all competent information 
including other furniture flammability standards and performance 
records from other domestic and foreign jurisdictions such as those you 
mentioned in the United Kingdom and California. If a link can be 
established between the flammability standard and the safety record, it 
could be very helpful to the Commission in establishing safety 
performance standards in this area.
    I also appreciate your bringing the issue of children's pajamas to 
my attention. Senator Breaux has expressed concern on this issue as 
well and there is legislation pending in the Senate introduced by 
Members of the Committee and by other senators. Should Congress pass 
legislation enhancing flammability standards for children's sleepwear, 
as Chairman I would see that sleepwear laws, and all laws passed by 
Congress, are vigorously enforced. I certainly want all of our children 
to wear safe pajamas. I do not, however, currently have enough 
information to form a specific opinion as to whether the child 
sleepwear issue should be further considered by the Commission. As 
Chairman, I will promptly look into the evidence and the record before 
the Commission to make a determination as to whether Commission action 
is warranted at this time in the absence of legislation.
                                 ______
                                 
  Written Responses to Post-Hearing Questions from Senator John Breaux

Fire Safety
    Question 1. In 1992, the CPSC rolled back fire safety requirements 
for children's pajamas, exempting so-called snug fit pajamas. Fire 
safety groups, including the Shriners, have repeatedly called for 
reinstating the stronger standard, arguing that it has resulted in 
increased deaths and injuries to children. Senator Burns and I have 
introduced S. 2188, while Senator Clinton and Senator Biden have 
introduced S. 2208, to enhance flammability safety standards for 
children's sleepwear. Do you think that fire safety for children's 
pajamas is something the CPSC should take a look at now that 10 years 
have elapsed since the agency's change in the regulatory requirements?
    Answer: Children's sleepwear is of particular interest to me since 
I have two young daughters at home whom my wife and I help get into 
their pajamas every night. Senator Rockefeller has expressed concern 
about this as well, and there is legislation on this particular issue 
introduced in the Senate by Members of this Committee and by other 
senators. Should Congress pass legislation enhancing flammability 
standards for children's sleepwear, as Chairman I would see that 
sleepwear laws, and all laws passed by Congress, are vigorously 
enforced. I certainly want all of our children to wear safe pajamas. I 
do not, however, currently have enough information to form a specific 
opinion as to whether the child sleepwear issue should be further 
considered by the Commission. Please know that I will promptly look 
into the evidence and the record before the Commission to make a 
determination as to whether Commission action is warranted at this time 
in the absence of legislation.
                                 ______
                                 
           Written Responses to Post-Hearing Questions from 
                          Senator George Allen

    Question 1. Mr. Stratton, I am very concerned about fire safety 
issues. Hundreds of deaths and terrible injuries, to say nothing of the 
enormous property damage, occur every year in this country from 
upholstered furniture fires alone. I understand that the Commission has 
been considered an upholstered furniture fire safety rule for 7 years, 
and that the Commission staff has presented a recommendation to the 
Commission for a proposed rule. Do you have a sense for what will be 
your timing on considering this issue?
    Answer: I agree that fire safety issues are among the most 
important issues before the Consumer Product Safety Commission (CPSC). 
I strongly believe that time is of the essence with all safety issues, 
and the Commission should act as quickly as possible on these issues, 
including the initiation of rulemaking proceedings. One of my goals is 
to significantly shorten the decisionmaking process at the CPSC. If 
confirmed by the Senate, I hope to resolve action on upholstered 
furniture fire safety issues as quickly as possible upon assuming the 
duties of Chairman. I am aware that this issue is of great importance 
to the Members of the Committee. Please know that I plan to establish 
an open dialog with the Committee and its Members on the critical issue 
of fire safety and other matters before the Commission.
    Question 2. Mr. Stratton, the Commission itself has said that--and 
I quote--``[s]ocietal costs associated with furniture fires are among 
the highest associated with any product subject to the Commissions 
authority'' \1\ and that upholstered furniture fires are ``one of the 
biggest killers among all products under CPSC's jurisdiction.'' \2\ The 
Commission has also stated ``CPSC staff believes that a small open 
flame performance standard for upholstered furniture could effectively 
reduce the risk of death, injury, and property loss resulting from 
small flame ignitions.'' \3\ As the Chair of the Commission, would you 
permit the staff recommendation on furniture fire safety to come to a 
vote before the Commission?
---------------------------------------------------------------------------
    \1\ 64 Fed. Reg, 64084, Nov. 22, 1999.
    \2\ Letter to Sen. Robert C. Byrd from Maureen O'Leary, Director, 
Congressional Relations, Consumer Products Safety Commission, April 2, 
2001.
    \3\ 63 Fed. Reg. 13017, March 17, 1998.
---------------------------------------------------------------------------
    Answer: I am not familiar with the details of the Commission's 
staff recommendations on upholstered furniture fire safety. The tragic 
deaths and injuries that result from such fires are disturbing and 
should be prevented. Should I be confirmed by the Senate and assume the 
duties of Chairman, I will promptly become familiar with this issue. I 
will certainly review all of the evidence before the Commission, 
discuss the issue with the staff and the other commissioners, and take 
other reasonable and necessary acts to ensure that upholstered 
furniture is as safe as possible for consumers.
  

</pre></body></html>
